POSTAL REGULATORY COMMISSION
  OFFICE OF INSPECTOR GENERAL




    FINAL INSPECTION REPORT

POSTAL REGULATORY COMMISSION’S
         HANDLING OF
    NONPUBLIC INFORMATION


          Report# 10-01-A01
            April 30, 2010
Handling of Nonpublic Information                                                                                                    10-1-A01




Table of Contents


INTRODUCTION .....................................................................................................1

          BACKGROUND .......................................................................................................1

          OBJECTIVE, SCOPE AND METHODOLOGY ..............................................................1

RESULTS ................................................................................................................2

          STORAGE OF NONPUBLIC INFORMATION ...............................................................2

          ESTABLISHING A “NEED-TO-KNOW” ....................................................................3

          RECEIPT AND TRANSMISSION OF NONPUBLIC INFORMATION ................................3

          TRAINING ..............................................................................................................4

          INCIDENT REPORTING ...........................................................................................5




                                                                      ii
Handling of Nonpublic Information                                                          10-1-A01



Introduction
Background
This report presents the results of a review by the Postal Regulatory Commission Office of
Inspector General (PRC-OIG) of the PRC's procedures, policies and systems for handling
information which is protected under 39 USC 504(g). PRC-OIG initiated this review in response
to requests on January 26, 2010, from both Chairman Edolphus Towns of the U.S. House
Committee on Oversight and Government Reform and Chairman Ruth Goldway of the PRC.
PRC-OIG was assisted in this review by the Inspections and Evaluations staff of the Treasury
Inspector General for Tax Administration.

In fulfilling its role in regulating and overseeing the United States Postal Service, PRC requires
the Postal Service to provide a wide range of information regarding its operations. Most filings
with the PRC are a matter of public record, and are posted on the PRC’s website
(http://www.prc.gov). However, the Postal Accountability and Enhancement Act of 2006 allows
the Postal Service to file certain types of information, including commercially sensitive
information, under protective conditions.

Under 39 USC 504(g), the PRC is generally prohibited from disclosing this nonpublic
information; however, outside parties in matters before the PRC may move for access to
nonpublic information only for purposes of participating in the matter.

On April 27, 2010, we held an exit conference with PRC management in which we described this
review’s findings and presented our recommendations.

Objective, Scope and Methodology

The objective of this review was to evaluate the handling of nonpublic information and material
received by the PRC, and to identify whether or not the controls in place are adequate enough to
safeguard the information from possible disclosure or unauthorized access.

39 CFR Part 3007, Treatment of Non-Public Material Filed with the Commission, establishes
criteria for (1) treatment (non-disclosure) and use of nonpublic material,1 and (2) standardized
requests for access to nonpublic material. 2 However, it does not specify any particular
requirement for the physical protection of nonpublic information.

There are no government-wide standards for the storage and safeguarding of nonpublic
proprietary information and, as a result, federal agencies have discretion over establishing their
own standards. The PRC has not established its own detailed physical security standards.
Where PRC lacked specific guidelines, we compared the Commission’s practices with the
standards of the Treasury Security Manual applicable to sensitive but unclassified materials.


1
    39 CFR Part 3007 § § 3007.23 and 3007.25
2
    39 CFR Part 3007 § § § 3007.40, 3007.50 and 3007.52

                                                          1
Handling of Nonpublic Information                                                         10-1-A01


The Treasury manual sets forth criteria for:

      •    Storing of information and documents;
      •    Establishing a “need-to-know” before granting access to information;
      •    Transmitting information via mail, courier, and/or electronic-mail;
      •    Training personnel to recognize and safeguard information;
      •    Destroying information; and
      •    Incident reporting.

We conducted an on-site physical security review of the PRC’s office spaces on April 1, 2010,
and in order to identify standard operating procedures for handling nonpublic data, we performed
follow-up interviews with PRC personnel on April 6, 2010.

This review was conducted in accordance with the Quality Standards for Inspections developed
by the President’s Council on Integrity and Efficiency and adopted by the Council of Inspectors
General on Integrity and Efficiency.

Results
Storage of Nonpublic Information
Per the Treasury Security Manual, storage of sensitive but unclassified information shall be, at a
minimum, in a file cabinet, desk drawer, overhead storage bin, credenza, or similar locked
compartment. Sensitive but unclassified information may also be stored in a room or area with
physical access control measures affording adequate protection and preventing unauthorized
access by the public, visitors, or other persons without a need-to-know.” 3

Except when checked out by PRC staff, all nonpublic information and documentation that the
PRC receives is stored in a docket room controlled by an electronic keypad lock with key
override. No other secondary security controls prohibit access to the docket room. Access to
either the keycode or the override to enter this room is limited to six employees of the PRC’s
Office of the Secretary and Administration.

Aside from a public reception area, all entrances to the PRC’s offices are controlled by doors
with either magnetic or keyed locks. A receptionist logs all visits and prevents unescorted
visitors from entering PRC offices. In addition, public access to the building is limited during
non-business hours.

The PRC exceeds the minimum criteria for sensitive information established by the Treasury
Security Manual, and has several satisfactory layers of physical control in place to reasonably
prevent the unauthorized access and disclosure of nonpublic information in its possession.

We make no recommendations for improvement in this area.

3
    Department of Treasury Security Manual (TD P 15-71), Chapter III, Section 23.10(a)

                                                          2
Handling of Nonpublic Information                                                           10-1-A01




Establishing a “Need-to-Know”
Alongside setting physical controls, an important factor of safeguarding nonpublic information is
determining an individual’s “need-to-know” before allowing access to the information. 4

The PRC, in accordance with 39 CFR Part 3007, established a procedural guide, Dockets
Protected Materials Procedures, in order to establish standard operating procedures for the
internal and external receipt, dissemination, and return/destruction of nonpublic information and
documentation in its possession. Per the procedural guide, “external reviewers wishing to access
Protected Materials must first complete a “certification of compliance with protective
conditions,” which is attached to the Ruling granting protective conditions. That certification
must be filed in person or electronically in the appropriate docket via the PRC’s filing online
system. Upon receipt of the certification the external reviewers are required to wait until the
third day after filing the certification before they may access the materials under those protective
conditions. Only the person who signed the certification may obtain the Protected Materials.” 5
Access to nonpublic materials by PRC staff is similarly limited.

The PRC has also established procedures requiring staff and outside parties to either return or
certify destruction of nonpublic materials at the conclusion of the matter for which access was
provided.

Nonpublic information received on electronic media such as Compact Discs is also copied onto
an internal file server for use by PRC staff, as an alternative to making multiple CDs for all staff
working on a particular matter. Access is limited to staff with a need to know by use of file
permissions. Per the PRC’s IT staff, the file server is separated from the PRC’s web server by a
firewall, and the Commission’s internal servers can only be accessed by either workstations
located at the PRC’s offices, or by Virtual Private Network using valid user credentials.

We find that the PRC has satisfactory standards in place in order to reasonably limit access to
nonpublic information to those with a need to know.

We make no recommendations for improvement in this area.

Receipt and Transmission of Nonpublic Information
The PRC has established specific standards regarding the receipt and transmission of nonpublic
information. Per 39 CFR § 3007.10, “non-public material shall not be filed electronically
pursuant to § 3001.9, but shall be filed in sealed envelopes clearly marked ‘Confidential. Do
Not Post to Web.’ The person filing the non-public materials shall submit two copies consisting,
where practicable, of two paper hard copies as well as two copies in easily usable electronic
form.” The PRC’s Dockets Protected Materials Procedures guide establishes further criteria for
the internal and external receipt, dissemination, and return/destruction of all nonpublic
information and documentation in its possession, specifically:
4
    Department of Treasury Security Manual (TD P 15-71), Chapter III, Section 1.3
5
    Dockets Protected Materials Procedure, undated

                                                          3
Handling of Nonpublic Information                                                           10-1-A01




      •    Protected materials may not be transmitted by any electronic medium;
      •    Documents may not be distributed, only checked out by authorized individuals;
      •    Dockets staff will inform reviewers that copies may not be made of Protected Materials;
           and
      •    Protected Materials may be shipped to reviewers outside the Washington, DC area if they
           have a completed certification (“certification of compliance with protective conditions”)
           on file with the PRC and they pay the applicable postage. Documents must be forwarded
           via registered mail, return receipt requested.

We find that the PRC has satisfactory standards in place in order to reasonably prevent the
unauthorized access and disclosure of the nonpublic information as it is being transmitted or
received.

We make no recommendations for improvement in this area.

Training
Per the Treasury Security Manual, “supervisors and program managers are responsible for
employees being trained to recognize and safeguard sensitive but unclassified information
supporting their mission, operations and assets. Supervisors and managers shall also ensure an
adequate level of education and awareness is maintained by affected employees. Education and
awareness shall begin upon initial employee assignment and annually reinforced through
mandatory training, staff meetings or other methods/media contributing to an informed
workforce.” 6

The PRC provides no formal training to educate staff members on adequately safeguarding non-
public information in their personal possession. Instead, Management provides an informal oral
“overview” of adequate safeguarding and relies on the supervisors to enforce procedure for
safeguarding nonpublic information filed with the PRC.

We recommend that the PRC:

1.        Develop a more comprehensive, formal training program in order to remind PRC staff of
          the security requirements for safeguarding nonpublic information.

PRC management committed to implementing this recommendation at our April 27, 2010, exit
conference.




6
    Department of Treasury Security Manual (TD P 15-71), Chapter III, Section 23.6

                                                         4
Handling of Nonpublic Information                                                           10-1-A01


Incident Reporting
Per the Treasury Security Manual, employees or contractors shall notify their supervisor once
they “become aware of the loss, compromise, suspected compromise, or unauthorized disclosure
of sensitive but unclassified information no later than the next business day” and “notification to
appropriate officials shall be made without delay when the disclosure or compromise could
result in physical harm to an individual or compromise an unclassified plan or on-going
operation.” 7 The security official, or designee, is required to conduct an inquiry to determine the
details and prepare a report including the following:

      •    Whether or not an incident actually occurred. If there was no loss, compromise, or
           unauthorized disclosure, the security official shall so state;
      •    The responsible person(s);
      •    The cause of the incident;
      •    Actions taken to minimize damage or neutralize the potential for further compromise;
      •    Recommendations that can be implemented to prevent recurrence of similar incidents;
      •    The estimated impact; and
      •    Any action taken or planned, including training, to prevent recurrence. 8

The PRC does not have a formal procedure for reporting alleged compromises of nonpublic
information.

We recommend that the PRC:

2.        Develop a method for reporting incidents where a possible compromise of nonpublic
          information occurs. In developing this plan, the PRC should consider provisions to ensure
          affected parties are notified, that the cause is determined, and that plans are made to
          prevent recurrence.

PRC management committed to implementing this recommendation at our April 27, 2010 exit
conference.




7
    Department of Treasury Security Manual (TD P 15-71), Chapter III, Section 23.14(a)
8
    Department of Treasury Security Manual (TD P 15-71), Chapter III, Section 23.14(b)

                                                         5
